IN THE SUPREME COURT OF THE UNITED STATES
4444444444444444444444444U

CARLOS ELIAS CRUZ-BERMUDEZ,
Petitioner,
-vUNITED STATES OF AMERICA,
Respondent.
4444444444444444444444444U

PROOF OF SERVICE
I, the undersigned, declare that:
1.
I am over eighteen (18) years of age; am a resident of the County of
San Diego, State of California; am not a party in the within action;
and my business address is P.O. Box 232726, Encinitas, CA, 92023.
2.
I mailed an one copy of the Petition for Writ of Certiorari to the Clerk,
U.S. Supreme Court, 1 First Street, N.E., Washington, D.C. 20543.
3.
I served the above brief to counsel for Plaintiff-Appellee by mailing
two copies:
Elizabeth Prelogar, Solicitor General of the United States
Office of the Solicitor General, Room 5614
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
4.
I mailed an additional copy to Carlos Elias Cruz-Bermudez.
5.
The above were delivered and deposited in the U.S. mails, first class
postage prepaid, at Encinitas, CA, on July 21, 2021.
I certify the foregoing is true and correct. Executed on July 21, 2021 in Encinitas,
CA.
s/Marisa L. D. Conroy
Marisa L. D. Conroy

-20-

